BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Justin
Michael Wolfe v. Cornmonwealth of Virginia, was sent
via Next Day Service to the U .S. Supr·eme Court and
3 copies were sent via Next Day Service and e-mail to
the following parties listed below this 29th day of
January, 2021:
Toby Jay Heytens
Office of the Attorney General
202 North Ninth Street
Richmond, VA 23225
(804) 786-7240
SolicitorGeneral@oag.state.va.us
Counsel for Respondent
Ashley C. Parrish
Jill Carvalho
King & Spalding LLP
1700 Pennsylvania Ave., NW
Washington, DC 20006
(202) 737-0500
aparrish@kslaw.com
Marvin D. Miller
The Law Offices of Marvin D. Miller
1203 Duke Street
Alexandria, VA 22314
(703) 548-5000
ofc@mdmillerlaw.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISH/NG INCORPORATED
(800) 890.5001

www.beckergallagher.com

8790 Governor's H ill Drive
' Suite l 02

Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 29, 2021.

Donna J. WoiiJ
1:)
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

s.l~ a'1 00 d /

Notary ~ ~

1

/3.

~

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
t="ebruary 14, 2023

